353 NORTH CLARK STREET CHICAGO ILLINOIS 60654-3456

Zachary C. Schauf
Tel +1 202 637 6379
ZSchauf@jenner.com

March 15, 2021
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Birt v. United States, No. 20-291

Dear Mr. Harris:
I represent Petitioner Jamell Birt in the above-captioned matter, which presents the
question of whether pre-August 3, 2010, crack cocaine offenders sentenced under 21 U.S.C.
§ 841(b)(1)(C) have a “covered offense” under Section 404 of the First Step Act. On January 8,
2021, this Court granted certiorari in Terry v. United States, No. 20-5904, which presents the same
question, and it has been holding this petition pending Terry. On March 15, the Acting Solicitor
General filed a letter in Terry stating that the “United States has reconsidered [its] position and
will no longer defend the judgment of the court of appeals” holding that individuals sentenced
under § 841(b)(1)(C) do not have covered offenses. See Mar. 15, 2021 Letter from Elizabeth B.
Prelogar at 1, Terry v. United States, No. 20-5904. The Acting Solicitor General noted that the
Court might “wish to appoint an amicus curiae to defend the judgment below”—but that Terry is
“scheduled for oral argument on April 20, 2021,” and that the petitioner there “is scheduled to
complete the remainder of his term of imprisonment … on September 22, 2021,” which would
create a “question of mootness” were the case “not to be decided before September 22.” Id.
Birt strongly agrees with Mr. Terry that the Court should do everything practicable to hear
and decide Terry this Term. See March 15, 2021 Letter from Andrew L. Adler at 1-2, Terry, No.
20-5904. As Birt’s Petition explained, resolving the question presented is urgent because many
individuals who are eligible for resentencing under Section 404 receive time served. Pet. 25-26.
If this Court ultimately agrees that individuals sentenced under § 841(b)(1)(C) are eligible for
relief—as the First, Fourth, and Seventh Circuits and now the Acting Solicitor General have all
concluded—then delaying resolution into next Term will permanently deprive many of these
individuals of six months or more of freedom (including Birt and other individuals sentenced under
§ 841(b)(1)(c) in the Third, Fifth, Sixth, Tenth, and Eleventh Circuits, see Pet. Reply 2). The Court
should not allow the Solicitor General’s belated confession of error to work that unfair effect. Last
Term, the Court heard remote arguments into May due to the COVID-19 pandemic. Birt joins Mr.

CHICAGO

LONDON

LOS ANGELES

NEW YORK

W ASHINGTON, DC

WWW.JENNER.COM

March 15, 2021
Page 2

Terry’s suggestion that it would be appropriate to do so again to the extent necessary to resolve
this issue this Term.1
In the event this Court does not resolve Terry this Term, however, Birt respectfully submits
that the appropriate course would be to grant his petition, appoint an amicus to defend the judgment
below, and schedule this case for argument as early as practicable next Term. Birt’s Petition
squarely presents the same question as Terry—and because his scheduled release is not until 2024,
his petition does not raise the mootness question the Acting Solicitor General flagged could arise
in Terry after September 22, 2021. Pet. Reply 9-10 & n.3. To be very clear, that is not Birt’s
preference. Birt wishes to see this issue resolved as expeditiously as possible so that he can
promptly seek the relief to which he believes he should receive under the First Step Act. That
means keeping Terry on the calendar and resolving it this Term. The worst of all possible worlds,
however, would be to delay Terry until next Term only for resolution to be delayed yet further due
to the potential mootness issue in that case.

Sincerely,
/s/ Zachary C. Schauf
Zachary C. Schauf
Counsel for Petitioner Jamell Birt
cc: See attached service list

It would not be appropriate to vacate and remand in light of the United States’ confession of
error. It is unclear how the Third Circuit would treat the United States’ new position, particularly
because the Third Circuit has held in a published opinion that Birt does not have a “covered
offense.” And because the Third Circuit at minimum would have to consider the issue again,
vacatur would work the same delay as removing Terry from the calendar for this Term.
1

March 15, 2021
Page 3

Service List
Elizabeth B. Prelogar
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
David D. Cole
American Civil Liberties Union Foundation
915 15th Street, NW
Washington, DC 20005
212-549-2611
dcole@aclu.org
David J. Zimmer
Goodwin Procter LLP
100 Northern Ave.
Boston, MA 02210
617-570-1000
dzimmer@goodwinlaw.com

